HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility
of Anthem Health Plans of Maine, Inc.,"(A-05-03-00071)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Anthem Health
Plans of Maine, Inc.," (A-05-03-00071)
October 27, 2003
Complete Text of Report is available in PDF format
(184 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent
of ineligible Medicare Skilled Nursing Facility (SNF) payments contained in our database of payments made under the administrative
responsibility of Anthem Health Plans of Maine, Inc. (Anthem).  We estimated that $1.8 million of ineligible SNF
payments were made under the administrative responsibility of Anthem during calendar years 1997 through 2001.  The
overpayments occurred because of the absence of an automated cross-check, within the Centers for Medicare & Medicaid
Services Common Working File and the Fiscal Intermediary’s claims processing systems, verifying that a three consecutive
day inpatient hospital stay occurred prior to SNF admission.